By Electronic Filing

August 7, 2020

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Boykin v. United States, No. 19-1264
Dear Mr. Harris:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules and
practices in light of COVID-19, Petitioner Doncey Boykin respectfully requests that distribution
of his certiorari materials be delayed for 14 days, from August 19, 2020, to September 2, 2020.
The brief in opposition in this case was filed and served on August 5, 2020.
Petitioner needs additional time to file a reply in support of his petition for a writ of
certiorari due to COVID-19, which has displaced Petitioner’s counsel from their offices and
made coordination with Petitioner, who is incarcerated, more difficult. Specifically, COVID-19related restrictions have led to delays in deliveries and scheduling of contacts between Petitioner
and his counsel.
Counsel for the United States, the sole respondent, does not oppose this request, which
will have no effect on the conference at which the petition will be considered.

Respectfully submitted,
/s/ Steven Winkelman
Steven Winkelman

cc:

See attached service list

Service List
Jeffrey B. Wall
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for the United States

